HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
Oklahoma," (A-06-07-00069_"Follow-Up Audit of the Medicaid Drug Rebate Program
in Oklahoma," (A-06-07-00069)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the
Medicaid Drug Rebate Program in Oklahoma," (A-06-07-00069)
February 4, 2008
Complete Text of Report is available in PDF format (309 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the
State agency had implemented the recommendations made in our previous audit of
the Oklahoma drug rebate program and established controls over the drug rebate
program, including the collection of rebates on single source drugs administered
by physicians.  The State agency implemented the recommendations from our prior
audit that related to the inaccurate accounts receivable data that was
transferred from the prior system to the current system.  The State agency
established controls over the drug rebate program, including the collection of
rebates on single source drugs administered by physicians.  Therefore, we did not
offer any recommendations.